     SIGAR                                                   Special Inspector General for
                                                             Afghanistan Reconstruction




                                                                        SIGAR Inspection – 13-1




       KUNDUZ ANA GARRISON: ARMY CORPS OF
       ENGINEERS RELEASED DYNCORP OF ALL
       CONTRACTUAL OBLIGATIONS DESPITE POOR
       PERFORMANCE AND STRUCTURAL FAILURES




                                                                                  OCTOBER
                                                                                    2012

SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison
SIGAR
                                                       October 2012
                                                       Kunduz ANA Garrison: Army Corps of Engineers Released DynCorp of All
                                                       Contractual Obligations despite Poor Performance and Structural Failures




 Special Inspector General for                           SIGAR INSPECTION 13-1
 Afghanistan Reconstruction

WHAT SIGAR REVIEWED                                      WHAT SIGAR FOUND
The Combined Security Transition Command-                In April 2010, SIGAR reported that the facilities at Camp Pamir were
Afghanistan, through the Afghanistan Security            at risk of structural failure because of poor site grading and serious
Forces Fund, provided $72.8 million to the U.S.          soil stability issues. During its follow-up inspection of Camp Pamir in
Army Corps of Engineers (USACE), Afghanistan             March 2012, SIGAR identified additional structural failures, improper
Engineer District-North (TAN) to construct an            grading, and new sink holes. USACE-TAN failed to adequately mitigate
Afghan National Army garrison (Camp Pamir) in            the collapsible soil conditions as recommended by SIGAR in April
Kunduz province. USACE-TAN awarded two                   2010, and structural failures and improper site grading continue to be
construction contracts to DynCorp International          serious concerns. Despite the unsatisfactory performance of the
LLC (DynCorp).                                           contractor, DynCorp, USACE-TAN released DynCorp from further
                                                         contractual liability in December 2011, when it entered into a
As part of its inspection program, the Special
                                                         settlement, paying DynCorp $70.8 million on the construction
Inspector General for Afghanistan Reconstruction
                                                         contracts and releasing it from any further liabilities and warranty
(SIGAR) followed up on actions USACE-TAN took
                                                         obligations. In agreeing to the settlement, USACE-TAN did not comply
to respond to a 2010 SIGAR audit
                                                         with the provisions of FAR 49.107(a), which require an independent
recommendation to address soil instability at
                                                         audit and review of a settlement proposal exceeding $100,000.
Camp Pamir and determine the corrective
                                                         USACE-TAN’s position is that the FAR provisions did not apply because
actions required to complete construction.
                                                         the contracts ended through a negotiated modification rather than
SIGAR conducted its work in Kunduz province              being terminated for convenience or default. However, based on
and Kabul, Afghanistan from January to                   SIGAR’s review, this was clearly a final settlement between USACE-
September 2012, in accordance with Quality               TAN and DynCorp that appears to be on unfavorable terms to the U.S.
Standards for Inspection and Evaluation                  government.
published by the Council of the Inspectors
General on Integrity and Efficiency.

WHAT SIGAR RECOMMENDS
This report makes three recommendations to the
Commanding General, USACE, to (1) justify the
cost of further repairs and remediation and
ensure that further construction is warranted,
(2) submit the contract settlement proceedings
with DynCorp for review, and (3) explain in writing
why the settlement was determined to be fair
and reasonable. In responding to a draft of this
report, USACE-TAN concurred with the
recommendations and noted the steps it is
taking under current contracts to address the
soil instability, site grading, and other concerns
identified during SIGAR’s inspection. It also
agreed to review the rationale for the DynCorp
settlement by November 9, 2012.
                                                         Exterior Structural Failure, Building 603 (latrine), Kunduz Army
                                                         Garrison, March 2012


       For more information contact: SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil
October 25, 2012


General James N. Mattis
  Commander, U.S. Central Command

General John R. Allen
  Commander, U.S. Forces-Afghanistan,
  and Commander, International Security Assistance Force

Lieutenant General Daniel P. Bolger
   Commanding General, NATO Training Mission-Afghanistan/
   Combined Security Transition Command-Afghanistan

Lieutenant General Thomas P. Bostick
   Commanding General and Chief of Engineers
   U.S. Army Corps of Engineers


This report discusses the results of an inspection by the Office of the Special Inspector General
for Afghanistan Reconstruction (SIGAR) to follow-up on a prior SIGAR recommendation
pertaining to the U.S. Army Corps of Engineers (USACE) ANA garrison construction project in
Kunduz province, Afghanistan. We found that USACE did not address the soil instability issues
as recommended in our prior report, and we observed additional structural failures, improper
site grading, and new sink holes. Despite poor performance and continuing structural
problems, USACE agreed to a “fair and reasonable” settlement that released the contractor,
DynCorp, from all contractual obligations to repair or remediate these conditions. This report
includes recommendations to the Commanding General, USACE, to justify the cost of further
repairs and remediation and submit the settlement with DynCorp to an appropriate
government audit agency for review, in accordance with FAR 49.107(a). Because of the
questionable terms of the settlement and the lack of an adequate explanation, we are also
recommending that the Commanding General, USACE, provide an explanation of why USACE
agreed to the settlement terms.
SIGAR conducted this inspection under the authority of Public Law 110-181, as amended; the
Inspector General Act of 1978; and the Inspector General Reform Act of 2008.




John F. Sopko

Special Inspector General
  for Afghanistan Reconstruction
                                            TABLE OF CONTENTS

Background .................................................................................................................................................................. 1 
Actions Taken by USACE-TAN Did Not Mitigate Soil Instability Issues, and Structural Failure of Facilities at the
     ANA Garrison Continue to Occur ........................................................................................................................ 4 

Despite Performance Issues, USACE-TAN Released DynCorp from Further Contract Obligations ....................... 10 
Conclusions ................................................................................................................................................................ 12 
Recommendations .................................................................................................................................................... 13 

Agency Comments ..................................................................................................................................................... 13 
Appendix I - Scope and Methodology ....................................................................................................................... 15 
Appendix II - Summary of Phase I and Phase II Construction ................................................................................. 16 

Appendix III - Summary of Phase I and Phase II Contracts ..................................................................................... 19 
Appendix IV - Comments from the U.S. Army Corps of Engineers ........................................................................... 21 
Appendix V - Acknowledgments ................................................................................................................................ 26 

TABLES

Table 1 - Timeline of Key Events ................................................................................................................................. 2 

Table I - Phase I Buildings, Facilities, and Structures .............................................................................................. 16 
Table II - Phase II Buildings, Facilities, and Structures ............................................................................................ 17 
Table III - Amendments to Contract W917PM-08-C-0033 ...................................................................................... 19 

Table IV - Amendments to Contract W917PM-08-C-0070 ...................................................................................... 20 

FIGURES

Figure 1 - Kunduz PRT March 2012 with Elevated Building Pad and Positive Drainage System ........................... 4 
Figure 2 - SIGAR Analysis of Historical Sink Holes and Structural Failures .............................................................. 6 
Figure 3 - Guard Tower and Wall, January 2010 ....................................................................................................... 7 

Figure 4 - Guard Tower and Wall, March 2012.......................................................................................................... 7 
Figure 5 - Soil Failure around Transformer 8 ............................................................................................................. 7 
Figure 6 - Interior of Building 603............................................................................................................................... 8 

Figure 7 - Exterior of Building 603 .............................................................................................................................. 8 
Figure 8 - Improper Grading and Landscaping .......................................................................................................... 9 
Figure 9 - Ruts from Off-Road Driving......................................................................................................................... 9 

Figure 10 - Standing Water on Road Indicating that Water is Not Draining into Storm Water Ditches as
     Designed ............................................................................................................................................................ 10 




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                                                                            Page i
ABBREVIATIONS & ACRONYMS

            ANA                          Afghan National Army
            CSTC-A                       Combined Security Transition Command-Afghanistan
            ETTC                         embedded training team compound

            PRT                          provincial reconstruction team
            QAR                          quality assurance report
            SIGAR                        Special Inspector General for Afghanistan Reconstruction
            USACE-TAN                    U.S. Army Corps of Engineers, Afghanistan Engineer District-North




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                              Page ii
An objective of coalition efforts in Afghanistan is to build the country’s capacity to provide for its own security
by training and equipping the Afghan National Security Forces, which includes the Afghan National Army (ANA)
and the Afghan National Police (ANP).1 The Combined Security Transition Command-Afghanistan (CSTC-A),
through the Afghanistan Security Forces Fund, provided $72.8 million to the U.S. Army Corps of Engineers
(USACE), Afghanistan Engineer District-North (TAN)2 to construct an ANA garrison in Kunduz province on
Afghanistan’s northern border. In April 2010, SIGAR reported that the facilities at the ANA garrison (Camp
Pamir) in Kunduz province were at risk of structural failure because of poor site grading and serious soil
stability issues.3 We initiated this inspection to follow up on one of the recommendations from that report―
that USACE resolve the soil stability issue and determine the mitigation or corrective actions required to
complete the garrison, including ensuring that the site was properly graded.
We conducted this inspection in Kabul, Afghanistan, the USACE-TAN Resident Office at Kunduz and Camp
Pamir from January to September 2012, in accordance with the Quality Standards for Inspection and
Evaluation, published by the Council of the Inspectors General on Integrity and Efficiency. The engineering
assessments were conducted by professional engineers in accordance with the National Society of
Professional Engineers Code of Ethics for Engineers.


BACKGROUND

The Kunduz ANA contracts included the design and construction of Camp Pamir to support the ANA garrison in
Kunduz Province on Afghanistan’s northern border.4 Camp Pamir was designed to house approximately 1,800
ANA personnel.5
The construction project was divided into two phases of construction:
        Phase I. USACE-TAN awarded a firm, fixed-priced design-build contract (W917PM-08-C-0033) to
         DynCorp on February 28, 2008, for almost $30.3 million. Facilities included barracks, storage
         facilities, a dining facility, and an embedded training team compound. USACE-TAN later exercised a
         series of options to upgrade and expand the project, increasing the total contract amount to almost
         $47.5 million. Based on our review of the master plan, 92 buildings were constructed during this
         phase.
        Phase II. USACE-TAN awarded a firm, fixed-priced design-build contract (W917PM-08-C-0070) to
         DynCorp on July 6, 2008, for almost $23.3 million, to construct additional barracks, the medical clinic,




1 According to the April 2012 Report on Progress Toward Security and Stability in Afghanistan, the Afghan National Security

Forces are ahead of schedule to achieve the end-strength of 352,000 by October 2012.
2In 2009, the Afghanistan Engineer District was divided into two districts—the North (now referred to as USACE-TAN) was
established in 2004 and the South was added in 2009.
3SIGAR Audit-10-09, ANA Garrison at Kunduz Does Not Meet All Quality and Oversight Requirements; Serious Soil Issues
Need to Be Addressed, April 30, 2010.
4 Other construction in the area includes German provincial reconstruction team facilities constructed in 2004, an airport

constructed by the Russians about 30 years ago, a DynCorp compound adjacent to the airport, and a base built by the
Dutch in 2004 and occupied in part by the U.S. Drug Enforcement Administration in 2008.
5 These were design-build contracts to house the 2/209th ANA Battalion, with the camp located on the Eshantop Plateau in

Kunduz province. The camp was one square kilometer enclosed, surrounded by stone walls, with four guard towers evenly
spaced on each side. The site was used for agriculture prior to construction. Based on our analysis of contract data, 129
buildings were constructed during the two phases.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                           Page 1
            and a detention facility. Based on our review of the master plan, 37 buildings were constructed during
            this phase.6
See table 1 for project timeline. Appendix II contains additional information regarding the different types of
structures; appendix III provides more detailed information on the contracts and amendments.

Table 1 - Timeline of Key Events
           Date                                                        Event

February 28, 2008           W917PM-08-C-0033, phase I, awarded to DynCorp

March 17, 2008              First quality assurance report (QAR)

April 13, 2008              Geotechnical report7 by original sub-contractor

July 6, 2008                W917PM-08-C-0070, phase II, awarded to DynCorp

May 11, 2009                Guard tower 511 sinking according to QAR reference

November 2009               USACE-TAN identifies soil subsidence following heavy snowfall accompanied by heavy
                            rain

December 5, 2009            Multiple sink holes reported in QAR

September 2010              DynCorp notified USACE that it would not use mitigating techniques, constructing 60
                            buildings without modifying its methods or providing adequate onsite drainage

December 8, 2011            W917PM-08-C-0033 settlement; modification P00004 ends DynCorp phase I

December 8, 2011            W917PM-08-C-0070 settlement; modification P00001 ends DynCorp phase II
Source: Contract documents for W917PM-08-C-0033 and W917PM-08-C-0070, provided by USACE-TAN;
Omran’s April 13, 2008 Geotechnical Report, Field Investigations, Field & Lab Test Results, and Geotechnical
Recommendations for Kunduz ANA Base, provided by USACE-TAN; W917PM-08-C-0033 QARs provided by USACE-
TAN; SIGAR Audit 10-09; and SIGAR Record of Site Visit to Kunduz, Camp Pamir.


Problems at Kunduz ANA Garrison Reported by SIGAR in April 2010
In April 2010,8 we reported that several structures (see figure 3) had failed9 following a December 2009
rainfall. We also observed severe settling and improper soil grading and noted that the probable cause for the
settling was lack of adequate site preparation. We reported that the soil at the site appeared to have the
characteristics of collapsible soil―loose, dry, low-density materials that collapse and compact if exposed to
water. According to USACE-TAN documentation and SIGAR analysis, the sinkholes appeared after DynCorp
mobilized onsite and began removing a half meter of topsoil, thereby changing localized drainage patterns.




6The contract amount for phase I and phase II construction was $72.8 million; under the terms of the settlement,
$2 million was de-scoped from one DynCorp contract. DynCorp therefore received a total of $70.8 million on the two
contracts. See appendix III for contract details.
7The geotechnical report is used to communicate site conditions and design and construction recommendations. The
purpose of a geotechnical investigation during project design is to determine the character and physical properties of soil
deposits and evaluate the soil’s potential as foundation for the structure or as material for earthwork construction.
8   SIGAR Audit 10-09.
9   For purposes of this report, failure is defined as a structure that is unsafe, uninhabitable, or unusable.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                            Page 2
DynCorp dug piping trenches and foundation holes without providing proper grading and drainage of the site.
Without proper site grading and drainage, water pooled and caused the sinkholes.
The roadbed at an intersection adjacent to these structures had also settled, and a large area appeared to be
collapsing into a cavity under this roadbed. We observed similar collapses at other locations throughout the
construction site. In December 2009, DynCorp indicated that as many as 48 sites in and around the garrison
showed signs of collapsed soil. USACE-TAN documentation indicated that the probable cause for the severe
settling was inadequate site preparation before building construction, and we reported that a future rainfall
would likely cause the soil and additional areas to collapse, jeopardizing other structures. Improper grading
also failed to allow rainwater to run off the site, further exacerbating the soil issues.
Although DynCorp was responsible for conducting a geotechnical report―including subsurface exploration―as
part of design and construction, it had not identified the soil subsidence issue.10 After a December 2009
rainfall, the company submitted a request to USACE-TAN to modify the contract due to “differing site
conditions” to cover the costs of repairing damages resulting from the settling. By April 2010, although USACE-
TAN and DynCorp agreed that the soil under the site was a collapsible soil, they had not agreed upon corrective
action. Phase I was about 20 months past the completion date, and the contract cost had increased by $19
million. Phase II was nearly 14 months past its completion date, the U.S. government had paid more than $51
million of the $72.8 million contracted value for construction, and ANA troops were being housed in tents
outside the garrison. At the time of our inspection site visit in March 2012, SIGAR noted troops living inside
the compound.
In addition to the severe settling and site grading issues, we noted examples of inadequate construction
quality and noncompliance with contract specifications, such as poor quality welds and rust forming on steel
roof support beams and other structural bracing in barracks and other facilities on the garrison. Further,
based on our review of oversight documentation, the lack of daily quality assurance reports (QARs) indicated
that quality management was virtually non-existent during the first 9 months of the project. Because there
were no reports, we could not verify if construction materials were substituted or if foundations and other
covered work were constructed to contract requirements.


Soil Instability Mitigation Techniques Used in Camp Pamir Area
Soil subsidence was a well-known and documented problem in the Camp Pamir vicinity. For example, German
coalition forces, building on the same plateau, identified this problem as early as 2004 and, along with other
construction contractors in the area, had used mitigating construction techniques, including elevated building
pads and proper drainage, to counter the risk of collapsible soil. When the German coalition forces
experienced soil issues at the provincial reconstruction team (PRT) site in 2004,11 they stopped work,
investigated the problem, and implemented measures to mitigate effects of the collapsible soils on their
compound. As a result, the design of the German PRT facilities implemented several methods to lessen the
risk, including
          removing and replacing soil with potential subsidence issues;
          constructing elevated pads for building foundations;
          sloping the soil for the elevated pads so that water drains away from building foundations; and



10 The contractor was responsible for visiting the site and determining the proper soil type, as noted in Section 5.1 General:

“Site specific geotechnical information necessary to design and construct the foundations, pavements and other
geotechnically related items contained in this project shall be the Contractor’s responsibility.” In addition, Section 3.10.5
states “The Design-Build Contractor will be responsible for Geotechnical Investigation, including subsurface explorations...”
11   The German PRT is located 4 kilometers (approximately 2.5 miles) from Camp Pamir.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                            Page 3
        extending building roof gutter drains, enabling drainage out beyond the sloped, elevated pads.
Figure 1 illustrates a typical drainage channel and elevated building pad at the Kunduz PRT.


         Figure 1 - Kunduz PRT March 2012 with Elevated Building Pad
         and Positive Drainage System

                           Foundation                                                       Storm water ditch




                                                                    ~500mm
                                                                    height

                                                                                                 Example of elevated
                                                                                                 pad which slopes

                                                               Flowing                           away from the

                                                               downhill                          foundation and into
                                                                                                 the storm water ditch.




         Source: SIGAR photo March 25, 2012.




ACTIONS TAKEN BY USACE-TAN DID NOT MITIGATE SOIL INSTABILITY ISSUES,
AND STRUCTURAL FAILURE OF FACILITIES AT THE ANA GARRISON CONTINUE
TO OCCUR

During our follow-up site visit on March 25, 2012, we found that USACE-TAN had not adequately addressed soil
stability and site grading issues identified in our prior report and had not taken steps to ensure that structural
failures did not reoccur. We noted that structural failures have continued and that other deficiencies, including
improper landscaping; off-road driving; and inadequate sidewalk construction, paving, and road grading are
placing additional loads on the collapsible soil and increasing the risk of additional structural failures.
We reviewed DynCorp’s pre-construction geotechnical report issued in April 2008 and USACE-TAN
documentation and determined that adequate information was available for the contractor to have known of
the collapsible soil risk.12 USACE-TAN noted that if the subcontractor that prepared the report had followed
USACE standards,13 the existence of collapsible soil would have been discovered using the data on hand and



12 The report, subcontracted to Omran Geotechnical Company, cited that over 80 percent of the soil sampled consisted of
fine silt and that the soil was very porous. The combination of a soil made up from mostly fine silt with high porosity, and
additional water and structural loading, increases risk of sinkholes forming, followed by building foundation collapse.
13 U.S. Army Corps of Engineers, Engineer Manual 1110-1-1904, Engineering and Design, Settlement Analysis, September

30, 1990.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                                Page 4
also noted that the report included an unapproved testing procedure.14 Nonetheless, USACE-TAN noted that
the geotechnical report contained sufficient information on soil conditions to cause great concern and force an
in-depth review of foundation design and drainage considerations. However, DynCorp reports that we reviewed
did not mention the collapsible soil risk, and DynCorp grading plans did not mention any mitigation procedures
related to the collapsible soil conditions. USACE-TAN reports in 2009 and 2010 discussed concerns regarding
soil instability in the vicinity.15 Moreover, in a November 2010 memorandum, a USACE-TAN engineer indicated
that DynCorp was aware that the German coalition forces had used mitigating techniques in constructing the
PRT. DynCorp continued to construct over 60 buildings without modifying construction methods and without
providing adequate onsite drainage.16
Soil instability continues to cause sink holes and structural failures at Camp Pamir, as can be seen in figure 2.
Based on our review of data provided by USACE-TAN, we have noted sink holes and structural failures over a 2-
year period, highlighted in yellow. We also noted our observations from the site visit on March 25, 2012,
highlighted in blue. These included new sink holes occurring at various locations, including the ETTC. During
the site visit, we also observed structural failures at transformer 8 and building 603 (latrine), and noted that
building 604 (barracks) was visibly beginning to settle.

Embedded Training Team Compound
The embedded training team compound (ETTC) is a separate compound within Camp Pamir and consists of an
entry control point, barracks, perimeter wall, guard towers, and a dining facility. During our site visit on March
25, 2012, we noted that USACE-TAN had repaired the failing guard tower and the perimeter wall. Figure 3
shows the tower and perimeter wall during the site visit in January 2010, and figure 4 shows the result of the
repairs in March 2012. Although we identified no additional structural failures within the compound, we did
identify new sink holes,17 which are noted in figure 2. We also observed that, with the exception of the entry
control point, none of the ETTC facilities were being used by the ANA.18 Although the compound was designed
and constructed to be used by German army trainers, it did not meet their security requirements and,
therefore, had not been occupied as planned. The dining facility was being used as billeting by a group of
training contractors.




14 USACE-TAN documentation indicates that Omran used an unapproved hand-operated “light cone” drop hammer test

instead of a standard penetration test.
15 These reports were addressed in SIGAR Audit-10-09: AED-North (now referred to as USACE-TAN), Trip Report for Kunduz

Investigation of Soil Surface Depressions, Dec. 19, 2009; Second Trip Report for Kunduz Investigation of Soil Subsidence-
DynCorp’s Engineering Efforts for Their Defense of Claims and an Interim Site by QAB, Feb. 4, 2010; and AED-North, Third
Report for Kunduz Investigation of Soil Subsidence-Summary of the German Soils Report, Feb. 12, 2010.
16 On November 14, 2010, USACE-TAN reviewed a geotechnical report and noted that DynCorp had still not implemented a
site grading plan to ensure adequate drainage. Other contract requirements to ensure proper drainage had not been met,
including many building foundations which were not 150 mm above grade, and slope away from buildings on all sides at a
minimum of 3 percent for 3 meters was not present on the site.
17 In its response to this report, USACE-TAN stated that it was addressing the drainage issues through the ANA Building

Repair contract (W5J9JE-12-C-0031).
18In its response to this report, USACE-TAN stated that it is not responsible for facility use and sustainment after the post-
beneficial occupancy date.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                              Page 5
Figure 2 - SIGAR Analysis of Historical Sink Holes and Structural Failures




Source: USACE-TAN, Kunduz ANA-Master Plan phase II, submitted by DynCorp on September 28, 2008. Note: We
highlighted sink holes and structural failures discussed in Q-01 QA Daily Reports (0033) and SIGAR Record of Site Visit to
Kunduz, Camp Pamir. Yellow background callouts are sourced from historical QARs over a 2-year period. Blue
background callouts indicate areas observed during the March 25, 2012 site inspection.


Transformer 8
During the March 25, 2012 inspection, we observed a sink hole developing and general structural settling
around transformer 8 due to collapsible soil conditions.19 As a result, the transformer concrete pad is at risk of
structural failure. Failure of this transformer would result in a loss of electrical power over a large portion of
Camp Pamir, causing significant financial loss and increasing the risk of injury through fire and electrical
shock. The location of transformer 8 is noted in figure 2. Figure 5 shows the area surrounding transformer 8
and some of the problems that we observed, including a sink hole, sidewalk settlement, and standing storm
water.




19 In its response to this report, USACE-TAN stated that it has submitted a basic contract change to ANA Kunduz Garrison

Utility Upgrade (W5J9JE-12-C-0021) to Omran Holding Group to repair the referenced sinkhole.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                           Page 6
Figure 3 - Guard Tower and Wall, January 2010                  Figure 4 - Guard Tower and Wall, March 2012




Source: SIGAR photo January 27, 2010 (from SIGAR               Source: SIGAR photo March 25, 2012 (individual in
Audit 10-09).                                                  photo blurred for security reasons).




               Figure 5 - Soil Failure around Transformer 8

                                                                                  Sink Hole
                                                                                  Sink Hole


                                                                SidewalkSettlement
                                                                Sidewalk Settlement




                                                             Stormwater
                                                             Storm waternot
                                                                         notdraining
                                                                              draining




               Source: SIGAR photo March 25, 2012.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                 Page 7
Buildings 603 and 604
During our inspection on March 25, 2012, we observed that building 603 (latrine)20 was unusable due to
structural failure because of soil subsidence.21 We also noted that building 604 (barracks)22 adjacent to the
latrine was beginning to settle and was at risk of failure. USACE-TAN officials attributed the structural failure to
water infiltrating into the soil underneath the building. The location of these facilities is noted in figure 2.
Figures 6 and 7 are examples of wall separation, both inside and outside building 603.



Figure 6 - Interior of Building 603                                     Figure 7 - Exterior of Building 603




Source: SIGAR photo March 25, 2012.                                     Source: SIGAR photo March 25, 2012.




Lack of Proper Landscaping, Site Grading, and Sidewalk Construction Also Affect Soil
Instability
During our site inspection on March 25, 2012, we observed improper landscaping and site grading, which
further exacerbated the impact of collapsible soil conditions at Camp Pamir. In accordance with the contract
technical requirements, DynCorp was to design and provide landscaping for the compound and provide grading
around facilities to slope away from all sides of the buildings at a minimum of 3 percent for 3 meters. We did



20 In its response to this report, USACE-TAN stated that a replacement latrine is included in a modification to contract

W5J9JE-11-C-0076, Biltek, Garrison Expansion (phase III) project.
21 Under the terms of the settlement of the phase I and phase II contracts, DynCorp was specifically relieved from repair of
latrines, including building 603.
22 We were not able to physically enter building 604. From observations through the windows, we could see that it was

being used by the ANA.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                             Page 8
not observe any contractor-installed landscaping or graded sloping away from buildings.23 The lack of
adequate landscaping, along with improper grading, enables water to infiltrate under buildings and camp
facilities, placing extra loading on the collapsible soil and further contributing to soil subsidence and structural
failures.
Sidewalks were also not built in accordance with contractual specifications, which required them to be wide
enough to be used as fire lanes and service roads for vehicle access close to camp facilities. We noted off-
road vehicle traffic and vehicle parking adjacent to camp facilities instead of in authorized parking areas,
which left deep ruts in the soil. Shipping containers were placed in improper locations as well. These
practices, along with the relatively flat terrain and improper grading, further contribute to soil subsidence and
structural failures by putting extra loading on the soil and allowing water to infiltrate under building
foundations.



Figure 8 - Improper Grading and Landscaping                     Figure 9 - Ruts from Off-Road Driving




Source: SIGAR photo March 25, 2012.                             Source: SIGAR photo March 25, 2012.




Roads Not Constructed or Graded as Designed Resulted in Improper Drainage, and
Unpaved Roads Affected Soil Stability
As part of the design of Camp Pamir, the contract required DynCorp to develop a road network to support
vehicle traffic; and the drainage plan indicated that all roads were to be constructed so that water would drain
into the storm water ditches. Our review found the contractor’s drainage plan was designed to divert all storm
water off-site in an efficient manner. However, we observed that actual road construction and grading did not
reflect this design.24 The entire site was relatively flat, instead of having the required slope. Without the




23In its response to this report, USACE-TAN stated that it is addressing the drainage issues through the ANA Building Repair
contract (W5J9JE-12-C-0031). It further noted its contractor will extend concrete aprons around the perimeters of 61
buildings to a minimum slope of 0.5 percent and a distance of 1.5 meters away from the building foundation.
24In response to this report, USACE-TAN indicated that it is addressing the road grading issue under contract W5J9JE-11-C-
0076, Biltek, Garrison Expansion (phase III).




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                           Page 9
appropriate road grading, water accumulated on the road surfaces and drainage channel, indicating improper
drainage. Figure 10 illustrates standing water on one of the road surfaces.

                                                                Lack of paving on the road network also had a
Figure 10 - Standing Water on Road Indicating that              negative effect on the collapsible soil conditions.
Water is Not Draining into Storm Water Ditches as               During construction, USACE-TAN chose not to
Designed                                                        exercise an option to pave the roads with asphalt or
                                                                concrete. As a result, vehicle traffic on the road
                                                                network, along with the lack of proper drainage and
     Storm
     water                                                      pavement, has placed additional loads on the
     ditches on                                                 collapsible soil, which is evidenced by the rough
     either side
     of roadway
                                                                condition of the road surfaces.


                                                                DESPITE PERFORMANCE ISSUES,
                                                                USACE-TAN RELEASED DYNCORP
                                                                FROM FURTHER CONTRACT
                   Dirt road
                   with standing
                                                                OBLIGATIONS
                   water

                                                              In December 2011, USACE-TAN, despite contract
                                                              performance issues under contract phases I and II,
Source: SIGAR photo March 25, 2012.                           released DynCorp from further work, including any
                                                              further contractual requirements, warranties, and
                                                              latent defects. While the Price Negotiation
Memorandum indicated that the settlement was a “fair, reasonable, and equitable adjustment to the
contract,” it did not provide an explanation of how USACE reached that conclusion. The results of the
settlement mean that the U.S. government has no recourse against the contractor for structural defects
related to phase I and phase II construction. This includes failures that may result from the lack of adequate
site preparation by DynCorp prior to commencing construction, as well as failure to use mitigating construction
techniques. Because DynCorp was released from any further contractual obligations under the two contracts,
remediation of structural failures will require additional funding above the $70.8 million that the U.S.
government has already paid to DynCorp. 25
It is not clear why USACE-TAN agreed to a settlement that released DynCorp from further work and liability, 26
especially when the contracts were closed out with known deficiencies and performance issues.27 Of further
concern are the known construction deficiencies and warranty and latent defects that USACE-TAN de-scoped
from the phase I contract. USACE-TAN subsequently awarded a contract, for nearly $1.9 million, to Hazheer
Construction and Engineering Company to complete work that DynCorp had not completed in accordance with
contract requirements.



25 The contract amount for phase I and phase II construction was $72.8 million; under the terms of the settlement,

$2 million was de-scoped from one DynCorp contract. DynCorp therefore received a total of $70.8 million on the two
contracts. See appendix III for contract details.
26The USACE-TAN representatives who participated in the settlement are no longer in Afghanistan. In its response to this
report, USACE-TAN agreed to initiate an in-depth review of the rationale for the settlement.
27As of December 8, 2011, DynCorp was over 948 days late in completing work deliverables for phase I, had received a
partial termination for default for phase I, a letter of concern for phase II, and had received interim unsatisfactory
performance evaluation rating for phase II. The settlement released DynCorp from all previously assessed liquidated
damages and retainage.



SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                       Page 10
Based on our review of the settlement documentation, the U.S. government was in a strong position to enforce
repair costs and warranty and latent defect issues on the phase I and phase II contracts when USACE
representatives met with DynCorp on October 6, 2011. However, on December 8, 2011, USACE-TAN entered
into a mutual settlement with DynCorp and terminated both contracts, paying DynCorp in full.28 The contractor
was released from any further contract work, as well as existing or future warranty obligations. For example,
DynCorp was released from any obligations to repair and refurbish latrines,29 improve storm water drainage
around the power plant and transformers, and update as-built drawings to reflect actual in-place construction.
In addition, USACE-TAN agreed to retroactively extend the contract duration date by 948 days; i.e., 2 and a half
years.30 The effect of this change was that DynCorp was no longer considered to be late in its contract
deliverables. USACE-TAN also changed interim unsatisfactory ratings to satisfactory on both contracts, across
all performance measures, including “Quality Control,” “Timely Performance,” “Effectiveness of Management,”
and “Compliance with Safety Standards.”
USACE-TAN also failed to comply with FAR provisions31 to submit the settlement proposal to an audit agency for
review. Under these provisions, the termination contracting officer is required to refer each prime contractor
settlement proposal of $100,000 or more to the appropriate audit agency for review and recommendations.
After the review, the audit agency is required to submit written comments and recommendations to the
termination contracting officer. Because there was no referral to an audit agency, an independent review of
the following issues was not conducted:
          DynCorp’s failure to adequately consider soil subsidence in its site preparation;
          the repair, warranty, and latent defects issues not addressed by DynCorp during the contract period;
          the subsequent award of a contract to Hazheer to address the repair, warranty, and latent defects
           issues;
          the retroactive extension of the contract deliverable dates to make it appear that DynCorp had met the
           deliverable deadlines;
          the change of performance assessments from unsatisfactory to satisfactory; and
          an explanation why, despite being in a strong position to enforce construction deficiencies, warranties,
           and latent defects, USACE-TAN chose to enter into in a mutual settlement with DynCorp for closeout of
           the two contracts.
USACE-TAN stated that this was a negotiated contract modification, and not a settlement and termination, and
therefore did not require an audit. However, the terms negotiated in the agreement with DynCorp are
indicative of a settlement and termination. For example, DynCorp was released from any further obligation to
perform work under the contract. DynCorp was also released from its obligation to repair existing structural
failures and other construction defects, and the contract was closed out. Moreover, USACE’s own
contemporaneous documents repeatedly refer to the agreement as a “settlement” or “final settlement.”32



28 USACE-TAN paid the contractor $1.2 million remaining on the contract, for a total of $70.8 million; as well as liquidated

damages of $2.7 million which had been previously assessed, and $3.6 million remaining in retainage.
29 This included building 603, which was noted during our site visit on March 25, 2012, as unusable due to structural

failure because of soil subsidence.
30 On May 21, 2008, the contract scope was increased and an additional 50 days was added to the period of performance.

As of October 5, 2011, DynCorp was 948 days late. This was codified in a contract modification dated December 8, 2011.
31   FAR 49.107(a).
32 The Price Negotiation Memorandum, dated December 8, 2011, contains numerous references to the negotiations as a
final settlement or settlement of the two contracts: Project Description, “Final settlement for contract closeout;” Purpose,
“to try and negotiate a settlement agreement,” Notes within the memorandum, “the meeting eventually resulted in a
settlement agreement being reached” and “the Contracting Officer’s Decision that a negotiated global settlement...is a fair



SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                           Page 11
SIGAR believes that the requirement for an independent audit of the final settlement of a multi-million dollar
contract, as required by the FAR, cannot be circumvented by USACE calling the settlement a “contract
modification.” This would negate the purpose of FAR 49.107(a).
In addition, the circumstances surrounding the settlement with DynCorp reinforce the need for an independent
audit. The settlement appears to be on unfavorable terms for the U.S. government. While the settlement
closed out both contracts and relieved DynCorp of substantial current and future contractual liability for
construction defects and other issues, USACE appears to have received little or nothing in return. The
settlement is even more questionable, given that structural failures continue to occur at the Kunduz site,
resulting from the lack of adequate site preparation prior to construction and the failure to use mitigating
construction techniques.


More Scrutiny Is Needed over Further Investment at Camp Pamir
The failure by USACE-TAN to ensure that DynCorp, as the construction contractor, appropriately addressed the
collapsible soil conditions within Camp Pamir prior to building construction increases the risk that structural
failures will continue to occur. USACE-TAN officials told us that, in the future, construction contractors will be
required to use soil instability mitigation techniques similar to those used by the German coalition forces to
construct the Kunduz PRT. Each building pad will be over-excavated by 3 meters, the collapsible soil will be
hauled off-site, and laboratory-verified backfill material will be brought back to the site.
The use of these mitigating techniques to remediate phase I and phase II construction issues will require
increased site excavation, transportation, and laboratory expenses. Further, due to the increased measures
and technical procedures required, additional oversight of the construction contractor will be necessary to
ensure quality control by the contractor and quality assurance by USACE-TAN. Accordingly, additional U.S.
investment at Camp Pamir to remediate phase I and phase II construction issues needs to be closely
scrutinized. Specifically, decisions to repair existing facilities or build new ones should be adequately
documented and justified and subjected to a rigorous review, including cost-benefit analysis.33 Doing so would
help quantify the further costs necessary to address the impact of the collapsible soil conditions within the
camp and determine whether additional U.S. government funds are warranted.


CONCLUSIONS

USACE-TAN failed to adequately mitigate the collapsible soil conditions at Camp Pamir, and structural failures
and improper site grading continue to be serious concerns. Despite unsatisfactory performance, USACE-TAN
released the construction contractor, DynCorp, from further contractual liability. Contract issues included
inadequate site preparation prior to construction to address the risk of collapsible soil; failure to use
appropriate mitigating construction techniques; and failure to properly grade the site to ensure adequate
drainage. As techniques to mitigate the unstable soil conditions have been successful for other contractors in
the vicinity of Camp Pamir, we question why they were not addressed as part of USACE-TAN’s oversight of
DynCorp during the construction period, the warranty and latent defect period, or in closing out the two
contracts. Moreover, in accordance with FAR 49.107(a), the USACE-TAN termination contracting officer failed
to submit the settlement with DynCorp to an appropriate audit agency for review and recommendations.
Therefore, no independent review was conducted to assess what appears to be a questionable settlement in



and reasonable settlement”, and Conclusion, “the final negotiated settlement...was fair, reasonable, and an equitable
adjustment to the contract.”
33   Guidelines for producing an economic analysis are outlined in Department of Defense Instruction Number 7041.3.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                        Page 12
favor of the contractor and against the interests of the U.S. government. As a result, the camp is at risk of
further structural failures, the construction contractor is not liable, and further remediation to protect the initial
U.S. investment of $72.8 million will require additional funds that should be justified and closely monitored.


RECOMMENDATIONS

To ensure the structural integrity of the construction of the ANA garrison at Camp Pamir and that additional
investment is in the best interest of the U.S. government, SIGAR recommends that the Commanding General,
USACE, direct USACE-TAN to take the following actions:
    1. Justify the cost of further repairs and remediation of structural failures at Camp Pamir funded with
       Afghan Security Forces Fund appropriations to ensure that further construction is warranted, at
       reasonable cost to the U.S. government.

    2. Submit the DynCorp settlement to an appropriate audit agency for review, in accordance with FAR
       49.107(a). Based on the review, the audit agency should submit written comments and
       recommendations. While the audit results would normally be communicated to the termination
       contracting officer, due to the questionable nature of the settlement, we further recommend that the
       audit results and recommendations be reviewed by the Commanding General
To fully document the reason that USACE released DynCorp from its contract, SIGAR recommends that the
Commanding General, USACE:

    3. Explain in writing why the settlement was determined to be fair and reasonable.


AGENCY COMMENTS

In commenting on a draft of this report, USACE-TAN concurred with the recommendations and noted steps it
has taken or plans to take to address drainage and road grading issues under current contracts. For example,
USACE-TAN stated that it is addressing the drainage issues at Camp Pamir through an existing ANA building
repair contract. Among other things, its contractor will supply and install 600 downspouts to ensure that
rainwater is diverted away from the buildings. USACE-TAN further noted that its contractor will construct an
asphalt paving system designed to carry 40 metric ton five-axle vehicles over roads within the existing garrison
compound and including a storm drainage system.
USACE-TAN also commented that its engineers were unaware of the soil subsidence problem until the rainfall
event of December 2009. However, in our view, USACE-TAN should have been aware of the soil subsidence
problem when it awarded the DynCorp contracts in 2008, based on available documentation and the fact that
subsidence was a well known and documented problem in the area as early as 2004.
With regard to our recommendations, USACE-TAN concurred with recommendation 1 to justify the cost of
further repairs and remediation of structural failures at Camp Pamir. However, USACE-TAN did not discuss any
new actions it plans to take in response to the recommendation. Instead, USACE-TAN noted that it had already
performed a detailed independent estimate of the costs of repairing and replacing items where completed
construction may not have met required standards. In our view, a more current justification of the costs and
need for further repairs is warranted.
USACE-TAN concurred with recommendation 2 and agreed to request a DCAA audit of the DynCorp settlement,
despite its position that FAR 49.107(a) does not apply because the contract ended through a negotiated
modification and was not terminated for convenience or default. We disagree that the requirement for an
audit does not apply. As we note in our report, the agreement with DynCorp had the characteristics of a


SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                    Page 13
settlement agreement and contract termination. Moreover, USACE’s own contemporaneous documents clearly
referred to the agreement as a final settlement to end these contracts. SIGAR believes that USACE cannot
circumvent the audit requirements of FAR 49.107(a) merely by characterizing a settlement and termination as
a contract modification. We welcome USACE-TAN’s intention to submit the settlement for review. It is not clear,
however, when USACE-TAN plans to request the DCAA audit or whether the reviewing official will be the
Commanding General, USACE, as we recommended.
USACE-TAN concurred with recommendation 3, noting that it has initiated an in-depth review of the rationale
for the settlement to be completed by November 9, 2012. Upon completion of that review, we will decide
whether to further examine the circumstances surrounding this settlement.
USACE-TAN also provided technical comments, which we incorporated into this report as appropriate




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                             Page 14
APPENDIX I - SCOPE AND METHODOLOGY

In April 2010, the office of the Special Inspector General for Afghanistan Reconstruction (SIGAR) reported that
the Afghan National Army (ANA) facilities at the Kunduz garrison were at risk of structural failure because of
serious soil issues.34 We initiated this inspection to follow up on one open recommendation that pertained to
resolving the soil stability issue and determining what mitigating or corrective actions were required under the
construction contract awarded to DynCorp International LLC (DynCorp) to complete phases I and II, including
ensuring that the site was properly graded.
To address our objective, we
        reviewed SIGAR Audit-10-09 for background;
        reviewed contract documents, design submittals, geotechnical reports and quality assurance and
         quality control documentation to understand project requirements and administration;
        interviewed U.S. government officials responsible for the construction projects being assessed, to get
         the agencies’ perspectives of the project; and
        visited the project site to observe the current status of soil instability and grading.
To determine what mitigation procedures and actions were being performed to counter the problems
associated with soil stability and improper grading, we reviewed relevant documentation and met with program
and engineering officials at the Combined Security Transition Command-Afghanistan (CSTC-A) and U.S. Army
Corps of Engineers, Afghanistan Engineer District-North (USACE-TAN) offices in Kabul, Afghanistan, and
engineers at USACE-TAN’s Kunduz Resident Office. We also conducted a site inspection of Camp Pamir on
March 25, 2012. We reviewed construction quality control and quality assurance reports to determine where
new soil stability issues were occurring, so that we could direct our attention to those areas during our limited
time onsite. Using these reports as a guide, we were able to map where new sink holes and structural failures
had occurred after the 2010 SIGAR site visit (see figure 2). During our March 25, 2012 site inspection, we
were able to use this information to help determine which specific areas we would inspect. We considered the
impact of compliance with laws and fraud risk. We did not rely on computer-processed data in conducting this
inspection.
We conducted this inspection from January to September 2012, in accordance with the Quality Standards for
Inspection and Evaluation, published by the Council of the Inspectors General on Integrity and Efficiency.
These standards were established to guide all inspection work performed by the Offices of Inspector General.
The engineering assessments were conducted by Professional Engineers in accordance with the National
Society of Professional Engineers Code of Ethics for Engineers. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our inspection objectives. This
inspection was conducted by the office of the Special Inspector General for Afghanistan Reconstruction under
the authority of Public Law 110-181, as amended, the Inspector General Act of 1978, and the Inspector
General Reform Act of 2008.




34 SIGAR Audit-10-09, ANA Garrison at Kunduz Does Not Meet All Quality and Oversight Requirements; and Serious Soil

Issues Need to Be Addressed, April 30, 2010.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                    Page 15
APPENDIX II - SUMMARY OF PHASE I AND PHASE II CONSTRUCTION

Table I shows the buildings, facilities, and structures that were included during phase I construction.

              Table I - Phase I Buildings, Facilities, and Structures
                                Description                     Building Number              Quantity

              Anti-vehicle trench                        5002

              Bachelor officer quarters                  402, 407, 609, 610, 901,        6
                                                         1005

              Barracks                                   403, 404, 405, 501, 502, 601,   26
                                                         602, 603, 604, 605, 606, 607,
                                                         608, 611, 902, 903, 904, 907,
                                                         908, 1001, 1002, 1003,
                                                         1004, 1007, 1009, 1010

              Battalion storage                          616                             1

              Chemical building                          102                             1

              Communication building                     302                             1

              Dining facility                            301, 507                        2

              Fuel storage building                      201                             1

              Garrison/brigade headquarters              401, 408                        2

              Guard house                                4001A, 4001B, 508               3

              Guard towers                               511 – 514, 3001 – 3008,         12

              Headquarters building                      614                             1

              Interpreter barracks                       505                             1

              Interpreter compound storage building      506                             1

              Morale, welfare, and recreation building   504                             1

              Motor pool building                        204, 206, 304, 916, 1019        5

              Operator room                              210                             1

              Parking lot                                615, 921, 1014                  3

              Perimeter road                             211                             1

              Perimeter wall                             515, 5001

              Petroleum, oil, and lubricants storage     207, 208, 305                   3

              Prime power plant                          202                             1

              Propane storage                            301A, 507A                      2

              Reception center                           4002                            1

              Solid waste collection point               306, 509, 510, 617              4



SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                Page 16
              Table I - Phase I Buildings, Facilities, and Structures
                               Description                    Building Number               Quantity

              Storage facility                         503                             1

              Toilet/shower building                   406, 603, 612, 703, 909,        6
                                                       1008

              Vehicle refueling point                  209                             1

              Waste water treatment plant              101                             1

              Water tank                               618                             1

              Water tank and pump house                816                             1

              Well house                               815                             1

                               Total Phase-I                                                  92
              Source: USACE, Kunduz ANA Master Plan, September 28, 2008.


Table II shows the buildings, facilities, and structures that were included during phase II construction.

              Table II - Phase II Buildings, Facilities, and Structures
                               Description                    Building Number               Quantity

              Arms storage                             409, 1016A, 1016B, 1016C,        6
                                                       1017B, 1017A

              Bachelor officer quarters                911, 912, 1012                   3

              Barracks                                 1011                             1

              Battalion storage                        920, 1015                        2

              Detention facility                       1021                             1

              Department of public works building      906                              1

              Fire station                             1022                             1

              Guard towers                             3009 - 3016                      8

              Headquarters building                    910, 1006                        2

              Laundry                                  516                              1

              Maintenance garage                       917, 1018                        2

              Medical clinic                           913                              1

              Operator room                            1025                             1

              POL storage                              918, 1020                        2

              Solid waste collection point             922, 1013                        2

              Training center                          905                              1

              Vehicle refueling point                  1024                             1



SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                  Page 17
              Table II - Phase II Buildings, Facilities, and Structures
                           Description                       Building Number       Quantity

              Warehouse/central receiving             915                      1

                          Total Phase-II                                             37

              Source: USACE, Kunduz ANA Master Plan, September 28, 2008.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                    Page 18
APPENDIX III - SUMMARY OF PHASE I AND PHASE II CONTRACTS

The United States Army Corps of Engineers (USACE), Afghanistan Engineer District-North35 awarded three
contracts related to phase I and phase II construction at Camp Pamir in Kunduz Province. We list the details
for each contract in the following sections.


W917PM-08-C-0033
On February 28, 2008, USACE awarded a fixed-price contract (W917PM-08-C-0033) for nearly $30.3 million, to
DynCorp International LLC for the design and construction of the 2/209th Headquarters facilities Afghan
National Army (ANA) Kunduz installation, Kunduz, Afghanistan. As of December 8, 2011, USACE had amended
the contract 12 times. The amendments increased by $17.2 million to nearly $47.5 million and extended the
period of performance to 998 days. The amendments are listed in table III.

             Table III - Amendments to Contract W917PM-08-C-0033
                Modification           Effective Date           Contract Time           Contract Price
                 Number                                           Change                   Change

             A00001                 May 21, 2008              +50 Days              No price change

             A00002                 May 24, 2008                                    No price change

             A00003                 June 30, 2010                                   No price change

             A00004                 August 7, 2010                                  No price change

             A00005                 May 3, 2011                                     No price change

             A00003                 May 25, 2011                                    No price change

             P00001                April 8, 2008                                    +$1,131,954.66

             P00002                 June 14, 2008                                   +$18,099,895.70

             P00002                 May 3, 2011                                     No price change

             P00003                 May 24, 2008                                    No price change

             P00003                 December 7, 2011                                No price change

             P00004                 December 8, 2011          +948 Days             -$2,000,000.00

                    Total                                          998 Days            $17,231,850.36
             Source: SIGAR summary of contract amendments as of April 29, 2012.




35In 2009, the Afghanistan Engineer District was divided into two districts—the North (now referred to as USACE-TAN) was
established in 2004 and the South was added in 2009.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                                       Page 19
W917PM-08-C-0070
On July 6, 2008, USACE awarded a fixed-price contract (W917PM-08-C-0070) for nearly $23.3 million, to
DynCorp International LLC for the design and construction of the 2/209th Headquarters facilities, ANA Kunduz
installation phase II, Kunduz, Afghanistan. As of December 8, 2011, USACE amended the contract three
times. The amendments did not increase the contract cost or the period of performance. The amendments
are listed in table IV.

            Table IV - Amendments to Contract W917PM-08-C-0070
               Modification           Effective Date          Contract Time        Contract Price
                Number                                          Change                Change

            A00001                July 8, 2010                                    No price change

            R00002                May 1, 2011                                     No price change

            P00001                December 8, 2011                                No price change

                     Total                                        0 Days               $0.00
            Source: SIGAR summary of contract amendments as of April 29, 2012.


W5J9JE-12-C-0031
On December 18, 2011, USACE awarded a fixed-price contract (W5J9JE-12-C-0031) for nearly $1.9 million, to
Hazheer Construction and Engineering Co. for the design, drawings, construction, supervision, labor, materials,
equipment, supplies, and transportation necessary to make repairs to the buildings at Kunduz ANA 2/209th,
Kunduz, Afghanistan. This contract was awarded to address the unresolved issues with the phase I and phase
II contracts. The contract period was for 410 days after receipt of notice to proceed, with an estimated
completion date of February 2013. As of April 29, 2012, this contract had not been amended.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                             Page 20
APPENDIX IV - COMMENTS FROM THE U.S. ARMY CORPS OF ENGINEERS




                                                             See SIGAR
                                                             Comment 1




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison     Page 21
                                                             See SIGAR
                                                             Comment 2




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison     Page 22
                                                             See SIGAR
                                                             Comment 3




                                                             See SIGAR
                                                             Comment 4




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison     Page 23
SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison   Page 24
SIGAR RESPONSE TO USACE COMMENTS

        1. SIGAR Inspection Report 12-02 is now SIGAR Inspection Report 13-1.
        2. As we note in our report, the pre-construction geotechnical report available in April 2008
           contained sufficient information on soil instability issues, and soil subsidence was a well-known
           and documented problem in the Camp Pamir vicinity as early as 2004.
        3. The $2 million de-scoping refers to the need to award a separate contract to address unresolved
           repairs and issues from the phase I and phase II construction projects that were identified as
           USACE-TAN was closing the DynCorp contracts. Since that time, soil instability and inadequate
           site preparation not addressed during phase I and phase II construction have led to additional
           sink holes, structural failures, and drainage problems, requiring further U.S. investment for
           corrective action. As USACE-TAN notes in its response, these problems are being addressed
           under current contracts.
        4. FAR Subpart 49.1 includes settlement agreements as part of its scope. As noted in this report, we
           maintain that the DynCorp settlement was clearly an agreement to end these contracts and
           therefore subject to FAR 49.107(a). For example, the Price Negotiation Memorandum, dated
           December 8, 2011, has numerous statements throughout the document that the negotiations
           were for a final settlement on the two contracts.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison                                             Page 25
APPENDIX V - ACKNOWLEDGMENTS

Crawford "Les" Thompson, Senior Inspections Manager
Milton Naumann, Auditor-in-Charge
Warren Anthony, Senior Auditor
William "Lee" Dillingham, Senior Engineer
Lise Pederson, Senior Engineer




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison   Page 26
                                 This inspection report was
                               conducted under project code
                                        SIGAR-I-001.




SIGAR Inspection 13-1/Kunduz Afghan National Army Garrison    Page 27
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                           Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
